          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Audit of the Prepayment Audit Process
           Transportation Audits Division
           Federal Acquisition Service
           Report Number A120060/Q/9/P13001
           March 14, 2013




A120060/Q/9/P13001
                       Office of Audits
                       Office of Inspector General
                       U.S. General Services Administration


                                        REPORT ABSTRACT
                          Audit of the Prepayment Audit Process
OBJECTIVE                 Transportation Audits Division
                          Federal Acquisition Service
 The objective of this Report Number A120060/Q/9/P13001
 audit was to determine March 14, 2013
 whether the Audit Policy WHAT WE FOUND
 and Review Branch of We identified the following during our audit:
 the Federal Acquisition Finding 1 – The Review Branch cannot determine which agencies to monitor
 Service’s Transportation because it has not identified the universe of federal agencies subject to
 Audits Division ensures Public Law 105-264.
 federal agencies audit Finding 2 – The Review Branch uses a flawed methodology to measure compliance
 all transportation bills with Public Law 105-264 and does not follow-up with non-compliant agencies.
                          Finding 3 – The Review Branch is not analyzing readily available transportation data
 prior to payment, as to adequately monitor compliance with Public Law 105-264.
 required by Public Law Finding 4 – The Review Branch is not complying with federal regulations that require
 105-264.      If    not, evaluation and approval of federal agencies’ prepayment audit programs.
 determine the reasons
 for, and the impact of, WHAT WE RECOMMEND
 the Audit Policy and Based on our audit findings, we recommend the Commissioner of the Federal
                          Acquisition Service (FAS):
 Review Branch’s lack of
 oversight.               1. Direct the Review Branch to continue its efforts to identify the best method(s) to
                               determine the universe of federal agencies required to comply with Public Law 105-
                               264. As part of this process, the Review Branch should access the Chief Financial
                               Officers Council website and use it as a resource for obtaining agency contact
                               information.
                               2. Improve compliance measurement by ensuring that complete and comparable
                               data are used to assess agency compliance with Public Law 105-264.
                               3. Contact agencies with low compliance rates to identify and address the reasons for
                               lack of compliance.
                               4. Improve monitoring of agency compliance with Public Law 105-264 by using and
                               analyzing transportation data more thoroughly.
                               5. Obtain, review, and approve all prepayment audit programs, as required by
                               CFR 102-118.325 and CFR 102-118.330.


Pacific Rim                    MANAGEMENT COMMENTS
Field Audit Office (JA-9)      While the Acting Commissioner agreed with the audit report’s findings and
450 Golden Gate Avenue         recommendations, FAS is seeking an exit strategy to transfer the duties and
Room 7-5262                    responsibilities of overseeing Public Law 105-264 to the Office of Government-wide
                               Policy. Management’s written comments to the draft report are included in their
San Francisco, CA 94102
                               entirety as Appendix C.
(415)522-2744



      A120060/Q/9/P13001                            i
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            March 14, 2013
 TO:              Thomas Sharpe
                  Commissioner
                  Federal Acquisition Service (Q)

 FROM:            Perla Corpus
                  Audit Manager
                  Pacific Rim Field Audit Office (JA-9)




 SUBJECT:         Audit of the Prepayment Audit Process
                  Transportation Audits Division
                  Federal Acquisition Service
                  A120060/Q/9/P13001

This report presents the results of our audit of the Federal Acquisition Service’s
prepayment audit process. Our findings and recommendations are summarized in the
Report Abstract. Instructions regarding the audit resolution process can be found in the
email that transmitted this report.

Your written comments to the draft report are included in Appendix C of this report.

If you have any questions regarding this report, please contact Eric Madariaga, Auditor-
in-Charge, at (415) 522-2730/eric.madariaga@gsaig.gov or me at (415) 522-2733/
perla.corpus@gsaig.gov.

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A120060/Q/9/P13001                      ii
Table of Contents

Introduction .............................................................................................................. 1


Results
Finding 1 – The Review Branch cannot determine which agencies to monitor
            because it has not identified the universe of federal agencies
            subject to Public Law 105-264 ................................................................. 3
                 Recommendation 1 ................................................................................. 4
Finding 2 – The Review Branch uses a flawed methodology to measure compliance
            with Public Law 105-264 and does not follow-up with non-compliant
            agencies .................................................................................................. 4
                 Recommendation 2 ................................................................................. 5
                 Recommendation 3 ................................................................................. 5
Finding 3 – The Review Branch is not analyzing readily available
            transportation data to adequately monitor compliance with
            Public Law 105-264 ................................................................................. 6
                 Recommendation 4 ................................................................................. 8
Finding 4 – The Review Branch is not complying with federal regulations that
           require evaluation and approval of federal agencies’ prepayment
           audit programs ......................................................................................... 8
                 Recommendation 5 ................................................................................. 9


Management Comments ............................................................................................ 9


Office of Inspector General Comments ...................................................................... 9


Conclusion.............................................................................................................. 10

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Prepayment Audits Criteria ......................................................... B-1
Appendix C – Management Comments .............................................................. C-1
Appendix D – Report Distribution ....................................................................... D-1




     A120060/Q/9/P13001                                        iii
Introduction
The Federal Acquisition Service’s (FAS) Transportation Audits Division has overall
responsibility for identifying and recovering transportation service provider (TSP)
overcharges and other debts related to transportation bills paid by federal agencies.
TSP services include shipping goods (household and commodities) and transporting
individuals (via airlines, trains, and ships). In fiscal year 2011, the Office of
Management and Budget (OMB) reported nearly $17 billion in government-wide
transportation expenses.

The key functions of the Transportation Audits Division are to:

    •   Oversee the performance of prepayment audits for transportation services
        procured worldwide;
    •   Conduct postpayment audits of transportation bills;
    •   Collect overcharges; and
    •   Adjudicate TSP claims.

The Transportation Audits Division is part of FAS’s Travel, Motor Vehicle, and Card
Services portfolio and is comprised of three branches: Audit Policy and Review,
Accounts and Collections, and Disputes Resolution. This audit focused on the Audit
Policy and Review Branch (Review Branch).

Public Law 105-264 (passed on October 19, 1998) requires that federal agencies
conduct prepayment audits of all transportation billings. In addition, the law grants
authority to the General Services Administration (GSA) for oversight of agencies’
prepayment audits. This responsibility is tasked to the Review Branch.

To assist federal agencies in complying with the law, GSA provides detailed rules and
regulations that are incorporated into the Code of Federal Regulations (CFR). Title 41,
CFR 102-118 addresses agency requirements for prepayment audits (see Appendix B
for a list of the applicable CFR clauses).

The Review Branch oversees compliance with the Public Law and the CFR by:

    •   Identifying the universe of agencies subject to Public Law 105-264;
    •   Collecting and analyzing agencies’ prepayment audit reports to determine
        compliance rates; 1 and
    •   Obtaining, reviewing, and approving agencies’ prepayment audit programs. 2


1
 The Branch calculated an agency’s compliance rate by comparing total transportation costs audited prior
to payment to the total budgeted transportation costs as reported by the OMB (Object Class 22).
2
 A prepayment audit program describes an agency’s method for performing audits of transportation
invoices prior to payment. See Appendix B for the detailed requirements of an acceptable prepayment
audit program.


A120060/Q/9/P13001                             1
The objective of this audit was to determine whether the Audit Policy and Review
Branch of the FAS Transportation Audits Division ensures that federal agencies audit all
transportation bills prior to payment, as required by Public Law 105-264. If not,
determine the reasons for, and the impact of, the Audit Policy and Review Branch’s lack
of oversight.

See Appendix A – Purpose, Scope, and Methodology for additional details.




A120060/Q/9/P13001                     2
Results
The Review Branch is not performing effective oversight of Public Law 105-264. As a
result, federal agencies, bureaus, or offices (federal agencies) could pay excess
charges to transportation service providers.

Finding 1 – The Review Branch cannot determine which agencies to monitor
because it has not identified the universe of federal agencies subject to Public
Law 105-264.

The Review Branch cannot determine which agencies are not complying with Public
Law 105-264 because it does not maintain an inventory of the federal agencies subject
to the law. The primary reason for this is that the Review Branch lacks agency contact
information. The Chief of the Review Branch indicated that no information exists on the
names and addresses of agency personnel responsible for overseeing the requirements
of prepayment audits.

The Review Branch has taken steps, such as contacting the Treasury Department and
accessing OMB’s website, to address this problem but to date it has not been
successful. In its first effort, the Review Branch obtained a list of 1,251 federal agency
payment offices from the Treasury Department and conducted a mass mailing in
September 2011 requesting transportation-related information, including data about
their prepayment audit programs. The response rate was a mere 6 percent and only 13
prepayment audit programs were submitted. Because the mass mailing did not achieve
its desired results, the Review Branch went to OMB’s website to identify departments
and agencies with reported transportation costs. As a starting point, it focused on the
25 largest departments and independent agencies. However, the OMB website lacked
the agency contact information necessary for the Review Branch to determine the
universe. As of June 30, 2012, the Review Branch had not received any additional
prepayment audit program contacts.

During this audit, we noted that the Chief Financial Officers Council maintains a website
that provides a member list of Chief Financial Officers (CFO) for 28
departments/independent agencies of the Federal Government. 3 The council consists
of the CFOs and Deputy CFOs of the largest federal agencies, as well as senior officials
from OMB and the Department of the Treasury. It is responsible for monitoring and
improving financial management within the U.S. Government. This website could prove
to be a valuable first step in developing the contact information the Review Branch
needs.




3
http://cfoc.gov


A120060/Q/9/P13001                      3
Recommendation 1

We recommend the Commissioner of the Federal Acquisition Service:

1. Direct the Review Branch to continue its efforts to identify the best method(s) to
   determine the universe of federal agencies required to comply with Public Law 105-
   264. As part of this process, the Review Branch should access the Chief Financial
   Officers Council website and use it as a resource for obtaining agency contact
   information.

Finding 2 – The Review Branch uses a flawed methodology to measure
compliance with Public Law 105-264 and does not follow-up with non-compliant
agencies.

The Review Branch cannot accurately measure compliance with Public Law 105-264
because the data it uses to compute a compliance rate is neither complete nor
comparable. In addition, the Review Branch did not obtain explanations from agencies
with low compliance rates.

A federal agency’s compliance rate (see Table I on the following page) should represent
the percentage of total transportation expenditures audited prior to payment to total
actual transportation expenditures for that agency. However, the Review Branch does
not include all agencies within a department by limiting its analysis to only those
agencies that have submitted transportation data. To provide a valid conclusion
regarding compliance, the Review Branch should evaluate total transportation costs
audited prior to payment to total transportation costs incurred at an agency, bureau, or
office level.

In addition, the Review Branch compares an agency’s total transportation costs audited
prior to payment to the department’s total budgeted transportation costs reported by
OMB (Object Class 22). 4 A study concluded that OMB significantly underreported
agency transportation budgets. 5 The study found that transportation costs incurred in
fiscal year 2008 totaled between $40 billion and $50 billion, compared to the $25 billion
reported by OMB.




4
 Prepayment contractor auditors were the source of this information.
5
 PRTM Management Consultants, LLC, a subsidiary of PricewaterhouseCoopers, issued the study in
February 2008 titled, Governmentwide Transportation Management Study.


A120060/Q/9/P13001                        4
       Table I – Summary of Total Transportation Costs Audited to Total Budgeted
                                    Fiscal Year 2011

                                             CR*                                               CR*
                                6
    No.             Department                (%) No.                Department                (%)
     1    Homeland Security                     7    14 Housing & Urban Development              0
     2    Commerce                             22    15 National Archives & Records Admin.       0
     3    Defense                              20    16 National Aeronautics & Space Admin.      0
     4    Energy                               62    17 Nuclear Regulatory Commission            0
     5    Education                             0    18 National Science Foundation              0
     6    Interior                             16    19 Office of Personnel Management           0
     7    Justice                              55    20 Small Business Administration            0
     8    Labor                                 0    21 Social Security Administration          41
     9    State                                 0    22 Treasury                                 2
    10 Transportation                           0    23 U.S. Aid for International Development   0
    11 Environmental Protection Agency 77            24 Agriculture                              1
    12 General Services Administration         28    25 Veteran Affairs                         11
    13 Health & Human Services                 27                    LEFT BLANK
       0 - Data Not Available
       * CR-Compliance Rate is calculated using the following formula:
       Total Transportation Costs Audited Prior to Payment / Total OMB Budgeted Amount x 100

The Review Branch has not followed up with the agencies listed in Table I to obtain
explanations or track the reasons for low compliance rates. In addition, we noted no
follow-up was performed for departments with a zero compliance rate due to
unavailable data. Furthermore, the Review Branch has not tried to determine why some
agencies within a given department have not reported their transportation data. For
example, only four of the nine bureaus of the Department of Interior submitted
prepayment audit data through their audit contractors. We could not find evidence that
the Review Branch attempted to follow up and obtain the data. The Review Branch was
unable to provide an explanation for the lack of agency follow-up.

Recommendations 2 and 3

We recommend the Commissioner of the Federal Acquisition Service:

2. Improve compliance measurement by ensuring that complete and comparable data
   are used to assess agency compliance with Public Law 105-264.

3. Contact agencies with low compliance rates to identify and address the reasons for
   lack of compliance.




6
All listed items are Departments of the U.S. Government with the exception of 11, 12, 15-21, and 23,
which are independent agencies.


A120060/Q/9/P13001                            5
Finding 3 – The Review Branch is not analyzing readily available transportation
data to adequately monitor compliance with Public Law 105-264.

The Review Branch is not taking advantage of all available transportation data in
monitoring agency compliance with Public Law 105-264. The Review Branch can glean
insight regarding an agency’s transportation costs by making more effective use of
prepayment auditor reports and FAS’s Transportation Management Services Solution
(TMSS) system. 7 CFR 102-118.335 requires the Review Branch to verify agency
prepayment programs through data analysis (such as assessing cost savings or other
improvements).

Prepayment Auditors’ Transportation Reports. Reports issued by prepayment
auditors contain useful information about the amount of overcharges and the cost
benefit of conducting a prepayment audit.

As shown in Table II, in fiscal year 2011, five prepayment auditors identified nearly
$4 million in transportation overcharges out of $114 million in total initial billings
reviewed. The weighted average return on investment resulting from using these
contractors was 23 dollars (i.e., 1 dollar of audit costs resulted in 23 dollars in cost
avoidance). 8

              Table II – Summary of Prepayment Audits for 5 Contract Auditors
                                      Fiscal Year 2011

                               Number of
    Prepayment Audit            Federal        Total Billed      Total           Total         Return on
       Contractor              Agencies          Initially      Savings*       Audit Cost     Investment
National Traffic Service           16           $64,919,906      $3,029,262        $91,024         32
Commercial Traffic                 11              5,499,514         195,756          8,120        23
USTC Live Logistics                 9            34,114,135          478,048         40,875        11
Lexicon Relocation                  1              7,288,059          48,174         45,594         0
Parsifal                            1              2,395,377          95,530         16,890         5
                       Total     38        $114,216,991       $3,846,770          $202,503        23**
*Total Savings are the amounts saved due to identified overcharges.
**Weighted Average

For the 10 agencies with the highest transportation expenditures, prepayment contract
auditors identified nearly $41 million in overcharges during the 6-year period ended
fiscal year 2011 (Table III). These audit costs totaled $733,908; therefore, the weighted
average return on investment was $129. 9 This type of data allows the Review Branch
to measure the cost effectiveness and benefits of the agencies’ prepayment audits.

7
 By inputting data, federal agencies can manage and report their transportation expenditures using this
database system via a GSA website (http://www.gsa.gov/portal/content/100737).
8
 The return on investment is a performance measure used to evaluate the efficiency of an investment,
which in this case is the outlay on audit costs. It is calculated as (Savings less Audit Costs) / Audit Costs.
9
 We also analyzed all 37 agencies and noted total savings of $51 million and audit costs of $1.2 million
with a weighted average return on investment of $124.


A120060/Q/9/P13001                               6
               Table III – Summary of Agencies Complying with Prepayment Audits
                                      Fiscal Years 2006-2011

                                        Total Amount      Total           Total        Return on
                   Agency                   Billed       Savings*       Audit Cost    Investment
     Navy                                $401,133,567    $24,076,947       $208,132           $115
     Coast Guard                           84,316,819      5,831,177         26,800            217
     Marines                                55,155,710     2,525,226         25,569             98
     Drug Enforcement Agency                52,202,424     1,102,619         11,111             98
     Secret Service                         52,089,974      431,866           3,468            124
     Bureau of Prisons                      51,947,641     2,359,704          8,497            277
     National Cemetery Administration       33,759,049      736,030         413,853                1
     Federal Bureau of Investigation        32,370,428      395,916          10,935             35
     Center for Disease Control             30,121,711     1,080,808          5,890            182
     Census Bureau                          22,091,682     2,075,075         19,653            105
                            TOTAL     $815,189,005 $40,615,368             $733,908        $129**
 *Total Savings are the amounts saved due to identifying overcharges.
 **Weighted Average

Move managers can also provide useful information regarding transportation
overcharges. 10 During the 6-year period ended fiscal year 2011, one move manager
identified $785,000 in transportation overcharges for 12 agencies with billings totaling
$41 million.

In addition, the Review Branch does not thoroughly analyze internal GSA transportation
data. Based on Finance Center and prepayment contract auditor data, we determined
that only 54 percent of GSA’s transportation expenses were subjected to prepayment
audits ($15,564,823 of $28,966,063). The Review Branch was unable to explain why
the remaining 46 percent ($13,401,240) was unaudited.

Transportation Management Services Solution system. GSA’s TMSS system,
maintained by the Center for Transportation Management, 11 is another useful source of
transportation data available to the Review Branch. Currently, 21 federal agencies are
managing and reporting their transportation expenditures in TMSS. In fiscal year 2011,
10 of these agencies reported more transportation expenditures in the TMSS than the
amount audited by their prepayment contractors, indicating that these agencies were
not in full compliance with Public Law 105-264.


10
  Move managers are GSA schedule contractors that manage transportation-related services for federal
customers. These services include pre-move counseling, TSP selection, preparation of bills of lading,
and prepayment audits.
11
  As part of FAS’s Office of Travel and Transportation, the Center for Transportation Management
provides federal customers with competitive rates, industry expertise, and proper management and
control of transportation services.



A120060/Q/9/P13001                              7
Recommendation 4

We recommend the Commissioner of the Federal Acquisition Service:

4. Improve monitoring of agency compliance with Public Law 105-264 by using and
   analyzing transportation data more thoroughly.

Finding 4 – The Review Branch is not complying with federal regulations that
require evaluation and approval of federal agencies’ prepayment audit programs.

The Review Branch is not complying with CFR 102-118.325. First, the Review Branch
is not using available information from prepayment contract auditors to obtain agencies’
prepayment audit programs. For example, three agencies of the Department of
Homeland Security (United States Coast Guard, Secret Service, and United States
Immigration and Customs Enforcement) provided transportation data. However, these
agencies did not submit their prepayment audit programs to the Review Branch for final
approval, as required in CFR 102-118.325. The Review Branch did not provide an
explanation as to why it did not obtain their prepayment audit programs.

Second, there were no prepayment audit programs for nine agencies and
departments, 12 including the three largest: the United States Navy, the General
Services Administration, and the United States Coast Guard. The Chief of the Review
Branch indicated that the Navy and Coast Guard were exempt, but was unable to
provide documentation to support these exemptions. CFR 102-118.325 requires all
federal agencies to submit prepayment audit programs to GSA for approval by the
Transportation Audits Division.

The Review Branch approved eight prepayment audit programs without determining
compliance with CFR 102-118.330. The Review Branch automatically approved these
programs without evaluation because the individual agencies used a GSA schedule
prepayment contract auditor. The Chief of the Review Branch noted that prepayment
contract auditors on schedule are aware of the requirements of the CFR and, therefore,
a review of the prepayment audit program elements is unnecessary. Furthermore, she
stated that the review of prepayment audit programs would be time consuming due to
redundant information.

We evaluated 13 submitted prepayment audit programs and determined that they
generally did not comply with CFR 102-118.330 (see Table IV).




12
 Besides departments of the Federal Government, independent agencies are also included.


A120060/Q/9/P13001                           8
               Table IV – Summary of Prepayment Audit Program Deficiencies
                                                                                                          13
Department                            Agency/Bureau/Office                           Missing Criteria
Agriculture                           Risk Management                                (b) through (j)
Federal Housing Finance Agency        Office of the Inspector General                All except (e) and (h)
Health & Human Services               Indian Health Services (Arizona)               All except (e) and (h)
Health & Human Services               Indian Health Services (Maryland)              All except (a), (e) and (h)
Housing & Urban Development           Accounting Center                              All except (a), (e) and (h)
Interior                              National Business Center                       All except (a), (e) and (h)
Justice                               Bureau of Prisons                              (a) through (j)
Justice                               Marshals Service                               (a) through (j)
National Aeronautics & Space Admin.   Shared Services Center                         All except (a), (e) and (h)
Commerce                              National Institute of Standards & Technology   (a) through (j)
Social Security Administration        Acquisition and Grants                         (b) through (e), (i), and (j)
Treasury                              Administrative Resource Center                 (d), (e), (i), and (j)
Treasury                              Internal Revenue Service                       All except (a) and (f)

Accordingly, the Review Branch should review the prepayment audit programs of all
agencies that have submitted transportation data. In addition, the Review Branch
should notify agencies to make necessary changes to ensure that programs meet the
requirements of CFR 102-118.330.

Recommendation 5

We recommend the Commissioner of the Federal Acquisition Service:

5. Obtain, review, and approve all prepayment audit programs, as required by
   CFR 102-118.325 and CFR 102-118.330.

Management Comments

While the Acting Commissioner agreed with the audit report’s findings and
recommendations, FAS is seeking an exit strategy to transfer the duties and
responsibilities of overseeing Public Law 105-264 to the Office of Government-wide
Policy (OGP). FAS will submit an action plan to address how GSA will exit from the
prepayment audit process completely or how FAS will transfer the responsibilities to
OGP. Management’s comments are included in their entirety as Appendix C.

Office of Inspector General Comments

We look forward to FAS’s corrective action plan on its exit strategy and transition of
responsibilities to OGP concerning Public Law 105-264. However, until official notice
has been provided by the GSA Administrator regarding the transfer of prepayment audit
oversight, FAS’s Transportation Audits Division must continue monitoring efforts to
ensure that federal agencies audit transportation bills prior to payment. Therefore, FAS
must provide a corrective action plan to address each of the report’s five
recommendations.
13
 See Appendix B for criteria.


A120060/Q/9/P13001                              9
Conclusion
FAS is not adequately ensuring that federal agencies audit all transportation bills prior to
payment, as required by Public Law 105-264. The Transportation Audits Division could
assist federal agencies to minimize transportation overcharges through effective
monitoring methods. Obtaining a complete universe, analyzing available transportation
data, and evaluating a federal agency prepayment audit program are methods that
could be used to improve oversight of the prepayment audit process. Although FAS is
planning to transfer the prepayment audit oversight role to the Office of Government-
wide Policy, the Transportation Audits Division must continue to ensure federal agency
compliance with the Public Law until the GSA Administrator provides official notice on
the transfer of prepayment audit oversight. Given the nearly $17 billion spent in
government-wide transportation expenses in fiscal year 2011, the likelihood of federal
agencies paying for transportation overcharges increases without effective oversight by
the Transportation Audits Division.




A120060/Q/9/P13001                       10
Appendix A – Purpose, Scope, and Methodology
Purpose

The audit of the Transportation Audits Division, Audit Policy and Review Branch was
included in the Office of Inspector General’s Fiscal Year 2012 Audit Plan at the request
of FAS Office of Travel, Motor Vehicle, and Card Services.

Scope

Our audit generally focused on prepayment audit transactions that occurred during
fiscal year 2011.

Methodology

To accomplish our objectives, we:

•   Interviewed Audit Policy and Review Branch personnel, including the Branch Chief;
•   Interviewed FAS management officials involved in program operations, including the
    Director of Travel Transportation Services, the Director and Deputy Director of the
    Transportation Audits Division, Branch Chiefs for Accounts and Collections and
    Disputes Resolution;
•   Obtained summary listing of OMB budgets and compliance rates of the top 25
    departments and independent agencies with reported transportation expenses;
•   Evaluated alternative methods for calculating federal department compliance rates;
•   Requested documentation from the Review Branch for any follow-up with
    departments with low compliance rates;
•   Obtained relevant transportation data from five prepayment contract auditors to
    determine the amount of transportation overcharges and the cost-benefit of
    conducting prepayment audits for fiscal year 2011;
•   Identified transportation overcharges and audit costs for ten agencies with the
    highest transportation expenditures during a 6-year period ended fiscal year 2011 to
    determine the weighted average return on investment;
•   Obtained relevant transportation data from one move manager and determined
    transportation overcharges for 12 agencies during a 6-year period ended fiscal year
    2011;
•   Requested an explanation on why 46 percent of GSA’s total transportation expenses
    ($13 million) were not subjected to a prepayment audit;
•   Reviewed GSA’s Transportation Management Services Solution to assess whether
    21 federal agencies are complying with Public Law 105-264; and
•   Reviewed 13 submitted prepayment audit programs for compliance with the
    requirements of CFR 102-118.325.

We conducted the audit between November 2011 and May 2012 in accordance with
generally accepted government auditing standards. Those standards require that we


A120060/Q/9/P13001                     A-1
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

The scope of our work was limited to answering the objective of this audit. Thus, our
assessment and evaluation of internal controls was restricted to those issues identified
in the Results section of this report.




A120060/Q/9/P13001                    A-2
Appendix B – Prepayment Audits Criteria
As noted previously, the CFR provides guidance to federal agencies in complying with
Public Law 105-264. Title 41, CFR 102-118 addresses requirements for prepayment
audits. The table below specifies the clauses addressed in this report.

Clause        Description of Requirement
102-118.270   Agency requirement to establish a prepayment audit program
102-118.320   Agency requirement to submit transportation costs to the Review Branch
102-118.325   Agency requirement to obtain final approval from the Review Branch for its prepayment audit program
102-118.330   Elements of an acceptable prepayment audit program
102-118.335   Review Branch requirement to verify agencies’ prepayment programs through data analysis

For CFR 102-118.330, the elements of an acceptable prepayment audit program must
provide for the following:

  (a). Verify all transportation bills against filed rates and charges before payment;
  (b). Comply with the Prompt Payment Act;
  (c). Allow for your agency to establish minimum dollar thresholds for transportation
       bills subject to audit;
  (d). Require your agency’s paying office to offset, if directed by GSA’s Audit Division,
       debts from amounts owed to the TSP within the 3 years;
  (e). Be approved by the GSA Audit Division. After the initial approval, the agency
       may be subject to periodic program review and re-approval;
  (f). Complete accurate audits of transportation bills and notify the TSP of any
       adjustment within 7 calendar days of receipt;
  (g). Create accurate notices to the TSPs that describe in detail the reasons for any
       full or partial rejection of the stated charges on the invoice;
  (h). Forward documentation monthly to the GSA Audit Division;
  (i). Establish procedures in which transportation bills not subject to prepayment audit
       (i.e., bills for unused tickets and charge card billings) are handled separately and
       forwarded to the GSA Audit Division; and
  (j). Implement a unique agency numbering system to handle commercial paper and
       practices.




A120060/Q/9/P13001                            B-1
Appendix C – Management Comments




A120060/Q/9/P13001    C-1
Appendix C – Management Comments (cont.)




A120060/Q/9/P13001     C-2
Appendix D – Report Distribution
Commissioner (Q)

Acting Deputy Commissioner (Q1)

FAS Chief of Staff (Q0A)

FAS Controller (QB)

Director, Office of Travel and Transportation Services (QMC)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison (QB0A)

Audit Liaison (QB0AB)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A120060/Q/9/P13001                     D-1
